                         u.s. COMMODITY FUTURES TRADING COMMISSION
                                                 Three Lafayette Centre
                                      1155 21st Street, NW, Washington, DC 20581
                                              Telephone: (202) 418-5110
                                               Facsirnile: (202) 418-5522



   Office of the
Inspector General


                                               MEMORANDUM

        TO:              Gary Gensler
                         Chairman

        FROM:            A. Roy Lavik
                         Inspector General
                                                [) £-
                                              Q ~~
        DATE:            May 25,2010

        SUBJECT:         Inspection Of CFTC's Disposal Of
                         Surplus Information Technology Equipment


       Executive Summary

       The Office of the Inspector General(OIG) conducted an inspection of the CFTC's Disposal of
       Surplus Information Technology Equipment. The OIG found that

           •   We were able to account for 1184 items or 99% of the selected sample of surplus
               Information Technology assets.

           •   One regional office was able to supply documentary evidence that 88 out of 88 surplused
               Information Technology assets that contain a data storage device were wiped clean
               ("sanitized") prior to its shipment to General Services Administration. However for other
               Information Technology assets containing a data storage device, located in three other
               offices, we found that the CFTC had no available record to confirm that those surplus
               assets were sanitized by agency employees as required by CFTC disposal policy.

       Recommendation

           •   The Office of Information Technoloy Services Asset Manager should confirm, document,
               and retain evidence that Information Technology assets which contain a data storage
               device were sanitized prior to shipment to General Services Administration or any
               outside party.
       Management Response
           •   Management has reviewed and accepted this recommendation

       Attached is the full report.
Background

In Fiscal Year 2009 1 the Commodity Futures Trading Commission(CFTC) initiated a technology
refresh2 of all Information Technology(IT) equipment provided to employees. 3 Consequently,
the replaced equipment, e.g. personal computers4 , computer monitors, and other electronic
equipment became surplus equipment. Once an agency declares personal property to be in
excess of their need the property is transferred to the General Services Administration(GSA)
which then follows established guidelines stated in the Federal Management Regulation (FMR)s
for disposing surplus equipment. Alternatively, Executive Order 129996 permits an agency to
donate excess electronic equipment directly to needy schools, which the agency elected to do for
IT assets in the New York, Chicago, and Kansas City offices.

In December 2009, this Office received an anonymous allegation of improper disposal of surplus
IT equipment. The allegation did not name any CFTC employees involved in the alleged
improper disposal. Because the allegation was vague, and because the source could not be
contacted for more information, we decided it would be most appropriate to conduct this
inspection.

Objectives

    •    One objective was to examine agency records and verify that the agency had properly
         accounted for and disposed selected surplus equipment related to the information
         technology refresh.
    •    Another was to review the internal controls associated with the disposal process for
         agency IT assets.

Scope and Methodology

We limited this inspection7 to FY2009 records for IT assets 8• We undertook actual verification
of each unique asset identified as surplus. In order to achieve our objective we acquired a copy
of the agency's inventory of all IT equipment subject to replacement during the upgrade.

1 October  1, 2008 to September 31, 2009
2 In November 2004 the Office of Information Resources Management upgraded agency personal computers to
Windows XP and Office 2003. See Memo from H. Schultz to All DC dated 11-18-04. Also see Memo from M.
Bolinger to All CFTC dated 10-1-04.
3 See Memo to All CFTC from D.C. OITS Customer Support Center dated 3-26-08; also see Memo to All CFTC
from F. Dragotto, Associate Director for Customer Services dated 12-22-08 regarding New Vista Desktop Rollout
Plans.
4 We are referring to computer processors-when appropriate we will identify specific equipment such as monitors.
S See Federal Management Regulation (FMR) (41 CFR Chapter 102 Subchapter B "Personal Property"). For
donation of surplus personal property see 41 CFR Part 102-37.
6 See Executive Order 12999,61 FR 17227 (April 17, 1996).

7 "An inspection includes evaluations, inquiries and similar types of reviews that do not constitute an audit or
investigation. An inspection evaluates programs and activities for the purpose of providing information to managers
for decision making; making recommendations for improvements to programs, policies, or procedures; and


                                                         2
Operationally, the Office of Information Technology (OITS) identifies and replaces all IT
equipment subject to this technology refresh and then transfers the surplus equipment to the
Office of Management Services (OMO). OMO is then charged with disposing the surplus
equipment. During FY2009 OMO transferred all surplus equipment located in the headquarters
office to the GSA. Consequently, we obtained from GSA a listing of all equipment received
from CFTC. For donated equipment to needy schools we contacted9 the schools designated to
receive the surplused asset. In order to verify the accuracy of each list we contacted the
individual who acknowledged receiving the IT equipment. We cross checked each asset listed in
the different lists to its final destination.

Results

For FY2009 CFTC surplused 1219 information technology assets. These assets consisted of
personal computers, monitors, laptops, servers, scanners, printers, switches, enclosures, and
miscellaneous IT items.

We examined transfer data for 1196 IT assets consisting of personal computers, laptops, servers,
and enclosures(we did not examine surplused personal communication devices such as
Blackberry smartphones). These items were located in 4 different offices of the agency and were
transferred to the GSA and several educational entities that met requirements of Executive Order
12999.

We were able to account 10 for 1184 11 items or 99% of the selected sample of surplus assets. All
11 items l2 not verified as disposed were initially recognized as CFTC assets and it appears that
these assets were disposed of, but documentation was not completed or retained. For valuing
these assets the GSA relies on acqisition cost for these items. That cost, as determined by GSA,
was slightly more than $1.6 million dollars. However, CFTC had fully depreciated these assets
to a current value of zero.

The Government Accountability Office's Standards/or Internal Controls in the Federal
Government 13 (GAO Standards) state that duties and responsibilities for authorizing,
processing, recording, and reviewing transactions should be separated among individuals.



identifying where administrative action may be necessary." (See Quality Standards for Inspections January 2005
page i)

8 Smaller dollar value peripheral equipment such as: PC stands, keyboard trays, speakers, cables, and docking
stations were not verified.
9 GSA was the official donor of the equipment. In the regional offices the schools picked up the equipment from the
regional office. Therefore we decided to contact the schools by phone and some did not respond to the inquiry. The
schools are not obliged to respond since the former CFTC computers were donated by the GSA.
10 We directly contacted the designated recipients of each individual asset to verify that they actually received the
surplus equipment.
11 Not including one duplicate asset which resulted in reducing our tally from 1185 to 1184.
12 Total items count is 1196 which consist of 1184 verified+11 not verified and 1 item counted twice.
13 GAO/AIMD-OO-2I.3.l Standards for Internal Control in the Federal Government (11/99) page 14




                                                          3
We found adequate separation of duties in the process for releasing surplus IT assets to external
entities.

Also, as mentioned in the GAO standards 14, "internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be readily
available for examination;" we found appropriate documentation of transactions and internal
control relating to the disposal of IT assets.

One regional office 15 was able to supply documentary evidence that 88 out of 88 surplused IT
assets that contain a data storage device were wiped clean ("sanitized") prior to its shipment to
GSA. However, for other IT assets, located in three 16 other offices, containing a data storage
device we found that the CFTC had no available record to confirm that those surplus assets were
sanitized by agency employees as required by CFTC disposal policy.

Recommendation

The OITS Asset Manager 17 should confirm, document, and retain evidence that IT assets which
contain a data storage device were sanitized prior to shipment to GSA or any outside party.




14 GAOlAIMD-00-21.3.1 Standards for Internal Control in the Federal Government (11/99) page 15
IS Chicago Regional Office
16 The offices are New York, Washington, and Kansas City.
17 See CFTC Property Inventory Management System Policy and Procedure Guide dated 7-28-08 page 9.



                                                     4
